U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Trump v. Citizens for Responsibility and Ethics in Washington, No. 20-330
Dear Mr. Harris:
Respondents’ brief in opposition in the above-captioned case is scheduled to be filed on or
before December 14, 2020. Pursuant to Supreme Court Rule 15.5, petitioner expressly waives the
14-day waiting period for distribution of this case to the Court. We respectfully request that the
Court distribute this case on its next distribution date for paid cases, which we understand is
December 23, 2020, so that the petition may be considered at the January 8, 2021 conference.
Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0330
TRUMP, DONALD J., PRESIDENT OF THE UNITED
STATES
CITIZENS FOR RESPONSIBILITY AND ETHICS IN
WASHINGTON, ET AL.

JOHN C. EASTMAN
THE CLAREMONT INSTITUTE CENTER FOR
CONSTITUTIONAL JURISPRUNCE
CHAPMAN UNIVERSITY
DALE E. FOWLER SCHOOL OF LAW
ONE UNIVERSITY DRIVE
ORANGE, CA 92866
877-855-3330
JEASTMAN@CHAPMAN.EDU
DEEPAK GUPTA
GUPTA WESSLER PLLC
1900 L STREET, NW
SUITE 312
WASHINGTON, DC 20036
202-888-1741
DEEPAK@GUPTAWESSIER.COM
ROBERT W. RAY
ZEICHNER ELLMAN & KRAUSE LLP
1211 AVENUE OF THE AMERICAS,
40TH FL.
NEW YORK, NY 10036
212-826-5321
RRAY@ZEKLAW.COM

JOSEPH MARC SELLERS
COHEN MILSTEIN SELLERS & TOLL PLLC
1100 NEW YORK AVE., N.W.
SUITE 500, WEST TOWER
WASHINGTON, DC 20005
202-408-4600
JSELLERS@COHENMILSTEIN.COM

